333 South Hope Street, 16th Floor
Los Angeles, CA 90071-1410
213-576-1000
Fax: 213-576-1100
www.alston.com
Edward J. Casey

Telephone: 213-576-1000

Email: ed.casey@alston.com

August 25, 2021
Via UPS Overnight Mail

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2045
Re:

Public Watchdogs v. Southern California Edison Company, et al.
S.Ct. No. 20-1676

Dear Mr. Harris,
The petition for a writ of certiorari in this case was filed on May 28, 2021. Although
the Respondents Southern California Edison, San Diego Gas & Electric, Sempra Energy
and Holtec International (collectively “Private Respondents”) waived their right to file a
response, the Court requested that a response be filed. The Private Respondents’ response
is now due on September 1, 2021.
The Private Respondents respectfully request, under Rule 30.4 of the rules of this
Court, an extension of time to and including October 1, 2021, within which to file the
Private Respondents’ response. (The federal government filed a request today also seeking
an extension to October 1, 2021.)
This extension is requested to complete preparation of the Private Respondents’
response. The Private Respondents are four separate and distinct corporate parties who will
file a single joint response. Private Respondents respectfully request the extension to allow
them time to properly coordinate and prepare the single joint response. Private
Respondents do not anticipate the need to request any further extensions.
Very truly yours,

Edward J. Casey
Attorneys for Southern California Edison
Company; San Diego Gas & Electric Company;
Sempra Energy; Holtec International
EJC/ysr
cc: See Attached Service List

Alston & Bird LLP

www.alston.com

Atlanta | Beijing | Brussels | Charlotte | Dallas | London | Los Angeles | New York | Raleigh | San Francisco | Silicon Valley | Washington, D.C.

20-1676
PUCLIC WATCHDOGS
SOUTHERN CALIFORNIA EDISON COMPANY, ET AL

L. RACHEL LERMAN
BARNES & THORNBURG LLP
2029 CENTURY PARK EAST
LOS ANGELES, CA 90067
BRIAN E. CASEY
BARNES & THORNBURG LLP
201 S. MAIN ST.
SUITE 400
SOUTH BEND, IN 46601
BRIAN.CASEY@BTLAW.COM
CHARLES LA BELLA
BARNES & THORNBURG LLP
655 W. BROADWAY
SUITE 1300
SAN DIEGO, CA 92101

LEGAL02/41021372v2

